                 Department of Veterans Affairs
                 Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-00670-265



       Healthcare Inspection

 Review of Circumstances Leading to

 a Pause in Providing Inpatient Care

        VA Northern Indiana

         Healthcare System

        Fort Wayne, Indiana





August 2, 2013

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                 Executive Summary

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection at the request of Senator Joe Donnelly and Congressman Marlin Stutzman
regarding the suspension (pause) of all inpatient admissions at the Fort Wayne campus
(the facility) of the VA Northern Indiana Healthcare System (VANIHCS), Fort Wayne, IN,
in October 2012. The OIG was asked to review overall quality of care and management
at the facility, define what issues led to suspension of inpatient care, and determine
what measures need to be taken to return the facility to normal operations.

We reviewed medical records and nursing administrative documents and identified
issues with quality of inpatient care in multiple cases. Several factors likely contributed
to the circumstances that allowed this to happen: the facility did not effectively and
consistently fill upper and mid-level leadership positions, there were lapses in clinical
judgment by individual providers, and there was limited compliance in maintaining nurse
competencies. Managers that were in place often did not provide necessary leadership.
Some prior budget deficits had been addressed, at least in part, by not filling key staff
positions.

As of May 2013, inpatient operations had not resumed at full capacity but are being
phased in. We determined that the facility, Veterans Integrated Service Network (VISN)
11, and Veterans Health Administration (VHA) could have improved communication to
stakeholders regarding the pause. In view of recurring qualitative issues relating to
patient care, lack of long-term stability in upper and mid-level leadership positions, and
workload, VISN 11 may need to consider the scope of services the facility is capable of
reliably providing, namely, the appropriate designation for ICU level care in the near
term and whether an ICU is viable in the long-term.

We recommended that VHA develop policy and guidance for facilities when major
clinical services are paused; that the VISN Director ensure the assigned ICU level of
care is commensurate with facility capabilities, and that the VANIHCS Director ensure
that recruitment efforts continue for vacant leadership positions, that nurse
competencies are consistently completed and validated, and that the nurse staffing
methodology is fully implemented.

Comments
The Under Secretary for Health and VISN and Facility Directors concurred with the
inspection results (see Appendixes A, B, and C, pages 16–22, for the full text of their
comments). We will follow up on the planned actions until they are completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for

                                                              Healthcare Inspections



VA Office of Inspector General                                                                     i
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                                 Purpose

At the request of Senator Joe Donnelly and Congressman Marlin Stutzman, the VA
Office of Inspector General (OIG) Office of Healthcare Inspections conducted an
inspection regarding the suspension (pause) of all inpatient admissions to the acute
medical unit and intensive care unit (ICU) at the Fort Wayne campus (the facility) of the
VA Northern Indiana Health Care System (VANIHCS).

In November 2012, Senator Donnelly and Congressman Stutzman requested that the
OIG undertake a review regarding the decision made by leaders of Veterans Integrated
Service Network (VISN) 11 to pause all facility inpatient care. The Senator and
Congressman were concerned that problems existed within the fundamental quality
control structure, not just for inpatient services but, possibly, throughout the facility.
They were also concerned that VA has not fully identified the specific measures that
need to be taken in order to return the facility to normal operations.
Specifically, the OIG was asked to review the following:

       Overall quality of care at the facility
       Overall management at the facility
       Issues leading to the suspension of inpatient care
       Measures to be taken in order to return the facility to normal operations


                                             Background

The VANIHCS consists of two campuses located in Fort Wayne and Marion, IN, and is
part of VISN 11, Veterans in Partnership. The facility provides outpatient primary care
and inpatient medical, surgical, and ICU care. There are a total of 26 authorized
beds—22 medical/surgical and telemetry beds on the acute care unit and 4 ICU beds.
Veterans Health Administration (VHA) designated the ICU as a level 3 on a scale of 1–
4, with level 1 the most complex and level 4 offering basic services.1 The Marion
campus provides long-term care and acute and chronic psychiatric care. The pause did
not involve the Marion campus.

On October 11, 2012, admissions to the ICU and telemetry beds were paused but
patients were still admitted to the acute medical unit. On October 22, all admissions to
the acute medical unit were paused.

Since 2007, several external reviews identified quality of care issues that led to
selective services being paused at the facility. In 2007, surgery services were paused
and in 2009, reusable medical equipment services were paused. In the present case,
VISN leaders cited several reasons why they decided to pause all inpatient admissions
to the facility, including the previous external reviews and subsequent findings, the lack

1
 Almenoff, P., Sales, A., Rounds S., et al. Intensive care services in the Veterans Health Administration. Chest
2007, 132:1455-62.


VA Office of Inspector General                                                                                     1
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


of documented staff competencies, and quality of care concerns regarding inpatient
care.

During the pause, outpatient services at the facility remained unaffected and veterans
who required inpatient medical or surgical care were referred for community-based care
or to other VA facilities within a 2–3 hour driving distance.

                            Scope and Methodology

Our review was limited to operations at the Fort Wayne campus of the VANIHCS.

We conducted site visits on December 3, 2012, and again from January 28–31, 2013.
We interviewed the VISN Director, Chief Medical Officer (CMO), and Quality
Management Officer. We interviewed the Acting Associate Director for Operations at
the facility and the Acting VANIHCS Director at the time of the pause. We also
interviewed the current VANIHCS Director, Chief of Staff (COS), Associate Director for
Patient Care Services, Quality Manager, and Associate Director for Operations at the
Marion campus. We conducted interviews with mid-level managers, clinicians, and
front-line employees.

We evaluated patient care areas, including outpatient and designated inpatient areas.
We reviewed VHA directives, electronic health records (EHR), facility policies and
procedures, administrative documents, nurse training records, and quality management
data and documents. A team from the VHA Office of the Medical Inspector (OMI)
visited the facility in October 2012 and issued an extensive patient focused internal
review for the VA Under Secretary for Health. We reviewed the OMI report but also
conducted an independent inspection and review of EHRs.

To gather information from facility employees, we conducted an Employee Assessment
Review (EAR) survey regarding patient safety and quality of care. Facility staff received
an e-mail invitation on December 3, 2012, to respond anonymously through a dedicated
OIG internet portal. Individuals responding to the survey could, if they wished, provide
specific details of their concerns and their contact information. There were 102
responses to the EAR survey through January 14, 2013, and 25 employees provided
additional information or requested an interview. We reviewed individual comments and
followed up on specific concerns. We aggregated the data and discussed the results
with the VANIHCS Director.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                    2
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                      Inspection Results

Issue 1: Quality of Care

Case Reviews

Of the 20 cases we reviewed, we selected three to offer as examples of the facility’s
failure to consistently engage sound clinical judgment and deliver quality inpatient care.
These three cases do not define the limits of the quality of care concerns we had after
reviewing a larger number of cases at the facility. However, these cases are offered as
examples of the facility’s failure to consistently engage sound clinical judgment and
deliver quality inpatient care.

Case 1

A man in his early 60s presented to the facility’s Emergency Department (ED) for a
perirectal abscess2 with cellulitis3.

Five days earlier, the patient had been seen as an outpatient at another VA medical
facility with fever and flank pain and placed on an antibiotic. One day earlier, he had
been seen at a non-VA facility, documented to have a marked elevation in white blood
cell count4 and had an imaging report interpreted to show a large perirectal abscess.
Upon presentation to the facility, the patient was admitted, seen by general surgery, and
underwent an urgent drainage of the perirectal abscess without immediate
complications.

Postoperatively, the patient was initially clinically stable, including a normal blood
pressure (BP) 133/65 mm Hg5, and was treated on the acute medical unit with physician
orders to resume maintenance BP lowering drugs and to obtain vital signs every
4 hours over the next 24 hours. Execution of the vital sign orders was not fully complied
with by nurses. The only documented vital signs during the first post-operative night
were pulse and respiratory rate. No BP readings were recorded for over 16 hours, at
which time the patient was found to have rapid heart rate, fever, low blood pressure,
and a low urine output6. The Rapid Response Team (RRT)7 was called to evaluate the
patient.




2
  Perirectal abscess is a collection of pus in the tissues surrounding the anus.

3
  Cellulitis is a skin infection caused by bacteria.

4
  White blood cell is a type of blood cell that, when present in increased numbers, often reflects inflammation

somewhere in the body, frequently on the basis of infection.

5
  Blood pressure is recorded in “millimeters of mercury” (mm Hg), a measure of the pressure of blood on the vessels

when the heart beats. Normal blood pressure values range approximately from 100-135/60-90.

6
  Low urine output may be an indication of reduced blood flow coming to the kidney.

7
  Rapid Response Team is a group of medical providers who may be called to a patient’s bedside, usually on a

general medical or surgical floor, to immediately assess and treat the patient with the goal of preventing intensive

care unit transfer, cardiac arrest, or death.



VA Office of Inspector General                                                                                     3
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


The RRT assessed the patient to be clinically unstable, possibly septic8, and requiring
urgent transfer to a nearby non-VA hospital for ICU care. Nursing notes reference
“lower BP’s” in the hours before the RRT was called but a series of specific BP readings
is not documented. Despite the apparent low BP readings in the hours prior to his
transfer to the non-VA ICU, the patient had been given his regular doses of two different
BP lowering drugs. The physician’s post-operative orders did not contain guidance for
notifying providers of abnormal BP levels or parameters for withholding BP lowering
drugs. There were no BP readings documented at the times the nurses gave the anti-
hypertensive drugs.

Case 2

A man in his early 70s presented to the facility’s ED complaining of shortness of breath,
chest pain, lightheadedness, and a “racing heart.” The patient had a known medical
history of coronary artery disease, hypertension, and atrial fibrillation9. Vital sign
assessment upon arrival in the ED showed a rapid pulse rate,10 135 beats/min., and a
low BP of 87/54 mm Hg. An electrocardiogram (EKG)11 confirmed the heart rhythm to
be atrial fibrillation. The patient received medication to lower his heart rate and
intravenous fluids to improve BP.

After being stabilized in the ED, the patient was admitted to a telemetry bed12 in a
non-ICU setting. There, further management included a dosage increase in an
antiarrhythmic drug, oral sotalol, which the patient was already taking for heart rate
control. Over the course of the rest of the day, the patient continued to have atrial
fibrillation, but at an acceptable ventricular rate, and with normal BP readings.

After 1 day in the hospital, and 16 hours following the sotalol dosage increase, the
admitting physician assessed the patient as “ready for discharge.” At the time of the
physician’s orders for discharge, the patient’s heart rate was in the normal range at
82 beats/min. However, within 2 hours, while still at the facility and waiting to be picked
up to go home, a telemetry technician noted the patient to have a rapid heart rate of
122 beats/min. while at rest, increasing to 140 beats/min. when walking. There is no
documentation that a nurse or physician was informed as to the patient’s increased
heart rates while waiting to go home. No cardiology consultation was obtained during
the entirety of the hospitalization.

Therefore, the patient, admitted to the hospital on the prior day for the consequences of
a rapid heart rate (135 beats/min.), was being sent home having a heart rate which was

8
  Septic (sepsis) is a serious infection, usually caused by bacteria, that can progress very quickly, involves organ

failure, and, in some cases, leads to death.

9
  Atrial fibrillation is an irregular, often rapid, heart rhythm that may cause poor blood flow to the body. During

atrial fibrillation, the heart’s two upper chambers (the atria) beat chaotically and irregularly, out of coordination with

the two lower chambers (the ventricles).

10
   A normal resting heart rate in an adult is 60-100 beats/minute (min.)

11
   Electrocardiogram is a recording of the heart’s electrical activity in a graphic form demonstrating findings to

include rate and rhythm.

12
   Telemetry is a device that allows a patient’s heart rate and rhythm to be under continuous electronic monitoring,

and usually observed by a medical provider from a remote location.



VA Office of Inspector General                                                                                           4
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


actually higher than when he was admitted. The patient did go home and, in less than
2 hours, returned to the facility’s ED complaining again of chest pain, lightheadedness,
and a rapid heart rate. Following stabilization and further assessment, the patient was
transferred to a non-VA facility the next day for additional cardiac evaluation, though the
precise reason for transfer is not clear.

Case 3

A man in his mid-80s presented to the facility’s ED with complaints to include shortness
of breath and diarrhea of months duration. He had a past medical history of
cardiomyopathy13, coronary artery disease, abdominal aortic aneurysm, and chronic
obstructive pulmonary disease. The patient’s ED assessment was notable for a low BP
of 92/56 mm Hg and low serum levels of calcium and magnesium14. He was admitted
to a non-ICU telemetry bed. Over the next several days, the patient’s presenting
symptoms and laboratory abnormalities were addressed.

On the fifth hospital day, the patient suddenly developed a rapid, irregular heartbeat.
He was transferred to the ICU, treated supportively and with anti-arrhythmic agents, and
was observed to convert to a normal sinus (regular) heart rhythm15 within 2 days,
though with a persisting rapid rate and low BP readings. Later that day, the patient
became lethargic and responsive only to painful stimulation, suggesting decreased
blood flow to the brain. The RRT was not informed of the patient’s changed clinical
status. Rather, the Medical Officer of the Day16 was called and, after several hours of
supportive care, the patient remained lethargic with rapid heart rate and continued low
BP readings. He was placed back in the ICU for approximately 24 hours, and became
more alert but with persistence of rapid heart rate and low BP readings. He was also
observed to have a low urine output.

The attending physician transferred the patient out of the ICU to an acute medical unit
telemetry bed. There, an EKG technician documented the patient to have had a change
to an irregular rhythm but the attending physician was not informed of this development.
The next day, the patient was seen by the attending physician who offered no comment
as to the continuing abnormal heart rate and rhythm. In fact, the physician described
the heart rate as “controlled,” even though the same chart entry documents a heart rate
that continued to be rapid, at 120 beats/min.

Two days later, the patient’s cardiac rhythm deteriorated into a more aggressive,
dangerous pattern and he experienced a cardiac arrest. Resuscitative efforts were not
in compliance with the American Heart Association’s 2010 Advanced Cardiac Life
Support guidelines algorithm for the type of arrest the patient experienced, were not
successful, and the patient died.

13
   Cardiomyopathy is a disease of the heart muscle often characterized by enlargement and, eventually, weakening.

14
   Calcium and magnesium are electrolytes carried in the blood, which are important for the normal function of

many cells in the body.

15
   Sinus rhythm is the normal, regular conducting rhythm of the heart.

16
   The Medical Officer of the Day is a designated responsible physician who is physically present in an inpatient

facility during periods when the regular medical staff is not on duty.



VA Office of Inspector General                                                                                   5
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


No cardiology consultation was documented during the hospital course to advise and
assist in managing this patient’s unstable condition that was likely caused, or
aggravated, by his underlying cardiomyopathy.

Summary of Case Reviews

In each patient’s circumstances, there is evidence of a lack of consistently sound clinical
judgment, intuitive reasoning, and/or a lapse in following procedure. The result for the
patients is a lesser quality of care, or frankly substandard care, and with possible
consequences as to clinical outcomes.

In Case 1, a physician’s orders for BP monitoring were not timely followed. Poor clinical
judgment allowed BP lowering agents to be administered even though available
readings suggested that the drugs were not indicated. Although the patient had
become clinically unstable, he was not in a closely monitored care setting.

In Case 2, a patient was being managed with a specialized cardiac drug, sotalol, without
guidance by a cardiologist and without due consideration given to the specifics of how
the body handles sotalol. A patient taking sotalol should be in a setting for cardiac rate
and rhythm monitoring when the drug is initiated or when the dose is increased. When
the dosage of sotalol is modified, it takes the body up to several days to reach a
“steady-state” concentration in the blood.17 This is important because it allows for an
understanding of what level of effectiveness and/or toxicity a specific dose of the drug
will have. Sotalol can also affect various segments of a conducted heartbeat as
reflected in an EKG tracing. The managing physician made no comments as to any
specific EKG segment changes, or lack of changes, on the basis of sotalol dose
adjustments. The patient, having been admitted with a rapid heart rate, was
prematurely discharged from the facility (and with a faster heart rate than he had been
admitted with) returning to the ED within 2 hours with foreseeable cardiac symptoms.

In Case 3, poor staff communication is evident from a lack of notification as to changes
in telemetry rhythm. Also, no formal cardiology consult was requested in this
complicated patient with heart failure and unstable arrhythmias and a cardiologist’s
guidance may have improved the patient’s care and, perhaps, final outcome.

The facility quality management program generally met VHA requirements, as reviewed,
and had identified quality of care concerns. Cases had been referred to peer review
and data was sorted by provider, service, and level of review. The three cases
summarized in this report have all been peer reviewed, with disclosures completed in
the case of each patient.

Issue 2. VANIHCS Leadership

The VANIHCS leadership team for both campuses consists of the Director, COS, and
Associate Director for Patient Care Services, and there is an Associate Director for

17
  Steady-state is the concentration of a drug achieved when the rates of drug administration and drug elimination
are equal.


VA Office of Inspector General                                                                                      6
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


Operations at each campus. From 2009–2012, there have been five VANIHCS
Directors or Acting Directors and at least five COS or Acting COS. The Associate
Director for Patient Care Services was assigned that title in 2003, but had been the
Nurse Executive and part of the leadership team since 1998. The Associate Director for
Operations at the Marion campus was assigned in 2008 and supervised some services
at the facility. There have been seven Associate or Acting Associate Directors for
Operations at the facility from 2009–2012. The current COS was assigned in April 2012
and the current VANIHCS Director in December 2012.

Additionally, many key administrative and clinical leadership positions (service chiefs)
have been held by individuals on a temporary basis, and we were informed that
mid-management decisions were often delayed or frequently changed. Staff reported to
us the recurrent leadership changes led to uncertainty and inconsistent administrative
and clinical decisions. We were told that there were times when vacancies were not
filled in order to balance budget deficits. We were also told that a key clinical service
chief resigned due to frustration with ongoing vacancies.

At the time of our review, there were multiple vacancies involving a number of clinical
positions. Table 1 indicates the status of key positions as of May 1, 2013.

Table 1. Status of Key VANIHCS Positions

              Vacancy:                                   Offer Date:                  Start Date:

Board Certified Cardiologist             April 4, 2013                 May 5, 2013
Chief of Extended         Care    and    Open and Continuous posting   Open
Rehabilitation Service
Chief of Medicine                        April 19, 2013                June 2, 2013
Chief of Mental Health                   Open and Continuous posting   Open
Chief of Primary Care                    December 6, 2012              March 24, 2013
Emergency        Department       (ED)   Open and Continuous posting   Open
Director (An in-house hospitalist
was detailed into the ED physician
position effective March 18, 2013)
ICU Director (Selectee also filled the   April 30, 2013                June 2, 2013
Board     Certified    Pulmonologist
position)

Overall, staff expressed confidence in the new VANIHCS Director and COS and are
hopeful that, as a management team, they will provide stability in facility leadership.

Issue 3. Factors Leading to the Pause

Ultimately, the VISN Director, after conferring with facility leaders, made the final
decision to pause inpatient services, regarding the measure as necessary for proactive
risk management. ICU and telemetry beds were paused on October 11, 2012, and all
inpatient beds were paused on October 22.


VA Office of Inspector General                                                                      7
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


During routine VISN reviews in October 2012, VISN staff found opportunities for
improvement in areas of communication, patient care, policies and procedures, and
staff training in the inpatient clinical areas. These were planned reviews as part of
system redesign and the implementation of the Patient Aligned Care Team initiative.18
VISN staff, to include the VISN Chief Medical Officer (CMO), completed patient tracers 19
and reviewed patients’ records finding structural issues with clinical care, especially
within the ICU.

On October 11, admissions to the ICU and telemetry were paused after the CMO
discovered qualitative care issues with two specific patients. The first patient had been
transferred from another facility to rule out a heart attack and the necessary clinical labs
to confirm the diagnosis were not completed for the patient. The second patient, cited
as Case 2 in the Quality of Care section above, had a cardiac issue and was discharged
from the facility and, less than 2 hours later, was readmitted.

After the ICU and telemetry pause, the Acting VANIHCS Director requested that VISN
staff complete a review of selected admissions from the 3 months prior to the pause and
look for any trends. The VISN clinical staff obtained a patient admission list from the
facility and selected 29 patients for review. They had concerns about care and/or
documentation of care for 14 of the 29 patients. It was unclear how these particular 29
patients were selected. During this time, patients were still admitted to the acute
medical unit.

On October 22, the VISN made the decision that all admissions to the acute medical
unit be paused. Although not determined by a single case, facility leadership described
one particular patient event that serves to summarize the reason for the pause. A
patient was admitted for alcoholism and had decreasing hemoglobin levels. The VISN
CMO was concerned about potential bleeding but the facility’s clinical staff did not
consider this risk. The patient was eventually transferred to a local community facility.
VISN leaders cited other reasons for pausing all inpatient care. Since 2007, there have
been several external reviews with resulting quality of care concerns that led to services
being paused at the facility. In 2007, surgery services were paused and in 2009,
reusable medical equipment services were paused. The VISN provided a list of
previous reviews with subsequent findings, including the lack of documented staff
competencies and poor communication among physicians and nurses, as reasons to
pause inpatient services. Although the facility implemented changes in response to the
external review findings, they did not sustain the corrective actions.
Workload during the Pause

During the pause, outpatient services at the facility remained unaffected and veterans
who required inpatient medical or surgical care were referred for community-based care

18
   Patient Aligned Care Team (PACT) is a new VHA initiative to implement a patient-centered medical home model

that is a patient-driven, team-based approach to providing total health care.

19
   A patient tracer is a technique used to assess specific care processes by observing and talking to staff in areas

where the patient received care.



VA Office of Inspector General                                                                                     8
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


or to one of three tertiary care VHA facilities within 3 hours drive from the facility. From
October 11, 2012, through May 1, 2013, there were 544 veterans who received
community-based care. At any given time before the pause, it was normal to have 8–10
patients receiving community-based inpatient care. Facility staff reported to us that in
FY 2012, inpatient services constituted 2.64 percent of the facility’s total workload.
FY 2012 average daily census for the acute medical unit was 15.7 and 1.9 for the ICU.
VISN 11 has provided budget support for the non-VA care since the pause.

Issue 4. Measures Needed to Return to Normal Operations
Action Plan
With the goal of resuming inpatient services, the facility has undertaken a detailed
four-step, phased plan:
       Phase 1. Admission of patients to the acute medical unit for chemotherapy.

       Phase 2. Admission of patients to the acute medical unit for general medical and

       surgical care in six bed increments.

       Phase 3. Admission of patients to the acute medical unit for telemetry.

       Phase 4. Reopening of the ICU.


On December 3, 2012, the facility started Phase 1 with the resumption of inpatient
services by admitting patients to the acute medical unit for chemotherapy infusions.
When we made our initial site visit, there was one patient admitted to the acute medical
unit for an infusion, and the facility leadership made scheduled visits to the unit during
the patient’s stay to monitor clinical care.
On February 27, 2013, the facility began Phase 2 with the admission of patients to the
acute medical unit with the capacity of six total medical and chemotherapy patients. On
March 27, the facility increased the number of patients that could be admitted to the
acute medical unit from 6 to 12. There have been 23 observation admissions and 34
full admissions since limited inpatient services were resumed, with an average daily
census of 1.6. To support 12 inpatient beds and infusion patients in the acute medical
unit, staffing levels are currently set to a skill mix of 51 percent registered nurses (RN),
22 percent licensed practical nurses (LPN) and 21 percent nursing assistants (NA).
This level of services (12 acute medical beds) requires total direct care staffing of: 14
RNs, 7 LPNs, and 8 NAs. The plan for Phase 2 includes referring the highest
complexity patients to local community partners.
During the pause, some of the inpatient staff were detailed to other clinical areas within
the facility. Additionally, staff took the opportunity to complete continuing education
requirements and training necessary for maintaining competency. Staff updated
policies and procedures and worked with mentors from other VA medical facilities to
improve patient care when beds were reopened.
Each phase toward resumption of inpatient services has specific indicators and
milestones to complete. Some of these include communication, environment of care,



VA Office of Inspector General                                                                    9
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


policies and procedures, psychological safety,20 staff competencies and training, and
staffing.
Organizational Improvement
Facility staff have been involved with multiple Rapid Process Improvement Workgroups
(RPIWs).21 The RPIWs are composed of frontline staff and supervisors from the clinical
and operational areas. They assess the current state of a process and may redesign
the current processes or systems to meet specific objectives and timelines. These
RPIWs have reviewed facility practices and processes, developed new guidelines and
policies, implemented changes, and provided training to staff. In April 2013, a RPIW
was initiated for telemetry. This workgroup is formulating policies, standard operating
procedures, and educational needs for implementation of Phase 3 telemetry.

In February 2013, the VISN CMO joined the facility staff to lead organizational
performance at the facility, relinquishing the VISN CMO position. He reports to the
VANIHCS Director and has been reviewing both clinical and administrative processes.
He is involved in RPIWs and mentoring facility staff in the key measures required to
prepare the facility for the resumption of inpatient admissions.
Additionally, the facility has an agreement with the VHA National Center for
Organization Development (NCOD) to provide monthly training for frontline staff,
supervisors, service chiefs, and the executive leadership team, with a focus on team
building and improving psychological safety. NCOD offers organizational assessment
and consultation services to VA organizations nationwide. These services may include
assessment of the work environment, team building at executive and work group levels,
and facilitation of work and process redesign. Monthly NCOD training started in
January 2013 and has continued through May.
Clinical staff from other VA medical facilities have been involved with staff training and
development, policy evaluation and development, and clinical mentoring during the
pause.
Environment of Care
We inspected the acute medical unit and ICU; the mental health (MH), primary care,
and specialty care outpatient clinics; the ED; and public areas (bathrooms, hallways,
and patient waiting areas). We focused on selected elements in environmental safety,
fire safety, infection prevention, and privacy.
Overall, the facility maintained a generally clean and safe environment, and confidential
patient information was protected. During the pause from inpatient care, the facility took
the opportunity to improve the aesthetics of clinical areas (paint, basic repairs).


20
   Psychological safety refers to an employee feeling safe to discuss errors by openly seeking input from others

whose involvement is necessary to make desired changes.

21
   RPIW is a team that utilizes a series of tools to examine clinical and operational processes with the intent of

improving a process or system.



VA Office of Inspector General                                                                                        10
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


Nurse Competencies
The facility had a nurse competency policy that outlined the assessment process and
required that competencies be assessed and evaluated annually.22 Competency
assessment and validation documentation processes should include the dates of
assessments, the methods used to determine competency, the names and signatures
of the individuals performing assessments (validators), and the signatures of the
employees being assessed.
We reviewed competency assessment and validation documentation for staff to
determine whether validation forms included these key elements. We reviewed 12
nurse competency folders for nursing staff (RN, LPN, NA) assigned to the acute medical
unit, ICU, and primary care clinics. A VISN requested VHA review team was onsite
during our January inspection to evaluate the nurse competency process for FY 2012.
For that reason, we reviewed competency assessment documentation for FY 2010 and
FY 2011. All the nursing staff we selected were employed prior to FY 2010. For FY
2010, 5 of 12 assessments had missing documentation. For FY 2011, 10 of 12
assessments had a combination of missing or incomplete documentation. Two of the
12 folders had competency assessment documentation for a combined 2-year period,
which was not in accordance with the facility policy of annual assessments. All of the
records we reviewed were missing data elements and did not meet facility
requirements.
The Associate Director for Patient Care Services told us that there were competency
assessments in place and there had been for a number of years. However, we
determined the competency assessment process was inconsistent and there were
variations in the validation responsibilities, methods, and documentation. It was difficult
to determine validation practices since the documentation for each individual skill, dates
and methods of assessment, validator signatures, and evidence of employee
involvement, was missing or incomplete.
Issue 5. EAR Survey Concerns
Human Resource Operations
Employees reported concerns with the Human Resource (HR) department that included
lack of effective leadership, lack of specialized experience, favoritism in hiring, illegal
hiring practices, and non-compliance with regulations.
We were not provided specific case information so were unable to review employee
concerns. We suggest that VISN staff review HR operations to ensure that HR staff are
appropriately trained and aware of HR regulations.




22
  Veterans Affairs Northern Indiana Health Care System Nursing Department Policy ND-2, Competency
Evaluation-Nursing, March 6, 2009.


VA Office of Inspector General                                                                      11
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


Mental Health Staffing
Employees reported a shortage of MH staff, creating concerns of timely service to new
patients and rescheduling appointments timely for returning patients.
MH clinic staff stated that veterans’ requesting access to MH services experienced a
delay of approximately 3-4 weeks prior to being seen. The MH clinic appointment time
allotted for Licensed Clinical Social Workers is 1 hour per patient; for psychiatrists
1 hour for new patients and 30 minutes for established patients; and for psychologists,
1 hour per patient. The average patient workload is 5 clinical hours per day. These
numbers are consistent with other VHA facilities.
Facility MH clinic staff are currently reviewing MH panel sizes, workload, and missed
opportunities for appointments. The facility leadership told us that additional MH
providers are being hired, including a Chief of MH.
Nurse Staffing Methodology
Employees reported that the nurse staffing methodology was not implemented in
accordance with VHA Directives.
 VHA Directive 2010-034 provides a nationally standardized method of determining
appropriate direct care staffing for VA nursing personnel.23 It defines the steps that all
facilities must follow to determine appropriate levels of nursing staff (numbers and
types) at all points of care. Staffing requirements determined through this methodology
support and maintain a standardized approach in ensuring there are adequate nursing
staff across the organization.
VHA facilities were required to implement the nurse staffing methodology by
September 30, 2011, and apply the nationally standardized methodology process to
determine VA staffing for all inpatient points of care.
The facility did not complete the required steps to develop a nurse staffing methodology
until September 2012.
Issue 6. Other Issues
ICU Level of Care
Employees reported the ICU was categorized by VA program officials as a level 3 but
considered by employees at the facility to be a level 4, and functionally operated as a
level 4. A level 4 ICU is expected to provide basic ICU services, such as continuous
electrocardiogram, central venous pressure monitoring24, and complex airway
management to include ventilator controlled respiration. A level 3 ICU provides
moderate services, such as dialysis, arterial and pulmonary artery wedge pressure


23
   VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.

24
   Central venous pressure monitoring involves the insertion of a plastic tube into a large blood vessel near the heart;

it is a technique used to help guide fluid therapy in hospitalized patients.



VA Office of Inspector General                                                                                       12
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


monitoring25, and continuous antiarrythmic drug administration. In a level 4 ICU,
primary care physicians can provide ICU care without an intensivist or consultant. The
expected length of stay in a level 4 ICU is less than 72 hours; patients requiring longer
stays should be transferred to another facility. In a level 3 ICU, more intensive services
are provided, multiple consultants must be available, and the average length of stay is
expected to be less than 5 days.
Employees reported that the ICU lacked the capability of even a level 4 ICU in the
period leading up to the pause. Staff told us they do not know how, or why, the ICU
level increased to a level 3 from a level 4, stating that facility leaders had not requested
this upgrade, and that it was unknown how the change occurred.
Communication of the Pause
Employees reported that communication about the pause was lacking. From the time of
the initial pause in October 2012 until January 2013, there was no official, direct VA
communication sent to veterans enrolled at the facility explaining the reasons for the
pause and whether there was a plan to eventually resume inpatient services. The first
publicity for the pause that veterans would have had access to was a local newspaper
article.
On October 15, 2012, the Public Affairs Officer (PAO) prepared a communication action
plan to include a media release on the ICU and telemetry pause for review and approval
through the VA Office of Public and Intergovernmental Affairs (OPIA)26 and VISN 11.
On this day, the PAO also contacted the local Congressional staff and the County
Veteran Service Officers (CVSOs) to inform them of the pause. On October 16, the
PAO was advised by OPIA to continue moving forward with planned actions but to hold
the press release until further notification.
On October 22, after admissions were paused to the acute medical unit, the PAO was
given approval to release a media statement. On this same day, the PAO also
contacted the local Congressional staff and the CVSOs to inform them of the pause on
admissions to the acute medical unit.
Veterans and facility staff were concerned about the lack of information regarding the
pause and there were suspicions in the community that the facility may be closed
permanently. On January 4, 2013, a telephone hotline was established to answer
questions pertaining to the pause, and it was open to the general public and staff via the
facility’s website and VA Facebook. On January 11 and 12, nearly 3 months after the
pause was implemented, a letter was mailed to 41,173 veterans enrolled at the facility
explaining the background and details of the pause and a timeline to resume inpatient
services. This letter also provided the telephone hotline number and its hours of
operation.



25
   Pulmonary artery wedge pressure monitoring requires a plastic tube to be placed into a blood vessel in the lung to

indirectly measure a type of heart pressure.

26
   OPIA is the VA division responsible for communication with veterans, media, and stakeholders.



VA Office of Inspector General                                                                                    13
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


On February 14, the VANIHCS Director and Acting VISN Director met in
Washington, DC, with Congressional delegates to provide a face-to-face update on the
pause.
On March 8, the facility hosted a media roundtable with eight local media outlets. The
media roundtable panel consisted of the facility’s Executive Leadership team and the
PAO as the moderator. The focus of the questions was on three areas: the pause,
phased re-start, and the path toward opening all beds.
Additionally, the VANIHCS Director has provided updates on the pause to staff in town
hall meetings, the facility daily newsletter, and via email. Veterans have been informed
through regular meetings with CVSOs and local media.
VHA Policies for Changes in Clinical Programs
VHA has policies and processes for implementing the restructuring of, addition to, or
decrease in, major clinical programs that may change or impact the delivery of care
provided to veterans.27
While VHA has policies with guidance on restructuring of clinical programs, such as
when expanding or deleting services, we could not find clear guidance for pausing
major clinical services. In interviews, we found that general rules for implementing a
facility pause were unclear to VISN staff.

                                      Conclusions

The pause was part of a VISN proactive risk management decision to prevent patient
safety issues before actual patient harm occurred. We believe this was a warranted
decision based on the entirety of clinical and administrative circumstances affecting the
facility at the time. A number of vacancies continue to exist for key positions and it has
been difficult to recruit qualified staff.

Our review of competencies only extended to nursing and we did not review
competencies for other support services. Competency assessments were identified by
the facility as areas for RPIW reviews. Nurse managers had not implemented all
required components of the nurse staffing methodology. Completion of all components
will provide necessary information to leadership regarding required nurse staffing.

We do not believe the facility, as currently constituted, is prepared to support a level 3
ICU. The facility has formulated a detailed plan to incrementally resume inpatient care.
We believe the VISN must maintain an active oversight role in this implementation and
continue ongoing reviews to ensure high quality inpatient care is being reliably and
consistently delivered.



27
  VHA Handbook 1000.01, Inpatient Bed Change Program and Procedures, December 22, 2010. VHA Directive
2009-001, Restructuring Of VHA Clinical Programs, January 5, 2009.


VA Office of Inspector General                                                                    14
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


The pause was not communicated well to veterans, facility staff, the community,
Congressional leaders, or external stakeholders. In interviews, we found that general
rules for implementing a facility pause were unclear to VISN staff.

We believe the current VANIHCS Director and COS bring a positive outlook to a
beleaguered facility. All employees we spoke with voiced trust in their ethics and
managerial skills and appreciated their openness in dealing with the substantive issues
facing the facility and the circumstances affecting staff on the basis of the pause itself.
Numerous employees independently expressed the hope that the new Director and
COS will bring greater leadership stability and effectiveness to the mission of VANIHCS.

                                 Recommendations

1. We recommended that VHA develop policy for guidance when major clinical services
are paused at a VA facility.

2. We recommended that the VISN Director ensure that a review of the facility ICU
level of care and support services is completed to determine the appropriate
designation.

3. We recommended that the VISN Director ensure that qualified clinical staff are
available to provide care.

4. We recommended that the VANIHCS Director ensure that efforts continue to recruit
qualified staff for vacant leadership positions.

5. We recommended that the VANIHCS Director ensure that nurse competencies are
consistently completed and validated annually.
6. We recommended that the VANIHCS Director ensure that the facility fully implement
the nurse staffing methodology and complete all required steps.




VA Office of Inspector General                                                                   15
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs	                                   Memorandum


   Date:       July 17, 2013

   From:       Under Secretary for Health (10)

   Subject: Healthcare Inspection – Review of Circumstances Leading to a
            Pause in Providing Inpatient Care,
            VA Northern Indiana Healthcare System, Fort Wayne, IN

        To:	 Assistant Inspector General for Healthcare Inspections (54)
             Director, Management Review Service (VHA 10AR MRS OIG Hotline)

    1.	 I have reviewed the draft report and concur with the report’s
        recommendations. I agree that guidance for implementing Veteran Health
        Administration (VHA) current policies for temporary reduction in patient
        services or temporary bed closures is not as clear as it could be.

    2.	 The OIG’s report pointed out that VISN staff are unclear about rules and
        policies for implementing temporary reductions in major services.
        Importantly, VHA policies on Restructuring of Clinical Programs and
        Inpatient Bed Change Program and Procedures do apply to both
        permanent reductions and temporary reductions (or pauses) of major
        clinical programs or services and bed closures at a facility.

    3.	 Should you have additional questions, please contact Karen Rasmussen,
        M.D., Acting Director, Management Review Service, at (202) 461-6643, or
        by e-mail at karen.rasmussen@va.gov.




VA Office of Inspector General                                                                   16
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix A

                         Comments to OIG’s Report
The following Under Secretary for Health comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that VHA develop policy for guidance when
major clinical services are paused at a VA facility.

Concur

Target date for completion: September 30, 2013

Under Secretary response:

VHA Directive 2009-001 and VHA Handbook 1000.01 are VHA’s current policies on
reductions or changes in major clinical services at a facility. Because these policies can
be construed to apply only to permanent changes, VHA will reinforce that they apply to
both temporary (paused) as well as permanent changes and will clarify how to
implement them. The Deputy Under Secretary for Health for Operations and
Management and the Assistant Deputy Under Secretary for Health for Clinical
Operations will provide policy guidance to key leadership during the Network Directors
meeting and the Chief Medical Officers/Quality Management Officers meeting.




VA Office of Inspector General                                                                   17
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix B
                            VISN Director Comments


               Department of
               Veterans Affairs                                    Memorandum


   Date:       July 11, 2013

   From:       Director, Veterans in Partnership (10N11)

   Subject: Healthcare Inspection – Review of Circumstances Leading to a
            Pause in Providing Inpatient Care,
            VA Northern Indiana Healthcare System, Fort Wayne, IN

       To:     Director, Kansas City Office of Healthcare Inspections (54KC)

               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)

   1.	 Attached is the Healthcare Inspection – Review of Circumstances Leading
       to a Pause in Providing Inpatient Care, VA Northern Indiana Healthcare
       System, Fort Wayne, IN action plan developed by the staff at the Northern
       Indiana Healthcare System.

    2. I have	 reviewed their plan and agree with the actions that will be
       implemented to correct the identified deficiencies.

    3. Should	 you have questions about this                    plan,    please     contact
       Cynthia Paterson, Ph.D., at (734) 222-4300.




           Paul Bockelman, FACHE

           Network Director, VISN 11





VA Office of Inspector General                                                                   18
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix B

                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 2. We recommended that the VISN Director ensure that a review of
the facility Intensive Care Unit level of care and support services is completed to
determine the appropriate designation.

Concur

Target date for completion: December 1, 2013

Facility response:

VANIHCS will complete a review of the facility Intensive Care Unit level of care and
support services to determine what level of care should be provided in collaboration with
VISN and VHA input. A communication plan will be devised to share the decision with
Veterans, staff and stakeholders.

Recommendation 3. We recommended that the VISN Director ensure qualified clinical
staff are available to provide care.

Concur

Target date for completion: October 1, 2013 (ongoing)

Facility response:

VANIHCS has worked to aggressively recruit qualified clinical staff to point of contact for
physician recruitment; engagement with the assigned national recruiter to increase
candidate pool and increased marketing strategies to increase candidate pool.
VANIHCS has recently employed the following clinical staff: Cardiologist entered on
duty (EOD) May 5, 2013; Intensivist/Pulmonologist (EOD June 2, 2013), three
Psychiatrists (estimated start dates ranging between August and September 2013), and
five Nurse Practitioners (estimated start dates range from June 30, 2013, to
October 6, 2013). Two Hospitalists (EOD June 30, 2013) were hired; however, one has
resigned effective July 5,2013, after accepting a different position. Recruitment for the
vacant hospitalist position has begun. Professional staff recruitment will be an ongoing
process.




VA Office of Inspector General                                                                   19
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix C
                         System Director Comments

               Department of
               Veterans Affairs                                    Memorandum


   Date:	      July 11, 2013

   From:	      Director, VA Northern            Indiana    Healthcare      System,
               Fort Wayne, IN

   Subject: Healthcare Inspection – Review of Circumstances Leading to a
            Pause in Providing Inpatient Care,
            VA Northern Indiana Healthcare System, Fort Wayne, IN

   To:	        Director, VISN 11, Veterans in Partnership (10N11)



               I have reviewed the report and concur with the findings and
               recommendations.




               Denise M. Deitzen

               Director

               Northern Indiana Health Care System





VA Office of Inspector General                                                                   20
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix C

                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 4. We recommended that the VANIHCS Director ensure that efforts
continue to recruit qualified staff for vacant leadership positions.

Concur

Target date for completion: October 1, 2013

Facility response:

VANIHCS has aggressively recruited and filled the following positions: Associate Chief
of Staff, (ACOS) Primary Care (EOD March 24, 2013), ACOS Acute Care
(EOD June 2, 2013, – ACOS is a cardiologoist as well and will be able to provide back
up cardiology coverage if needed), and ICU Director (EOD June 2, 2013, – ICU Director
is an intensivist and pulmonologist and will provide back up on the medical floor and
pulmonary clinic during the time of the ICU pause). VANIHCS is continuing to recruit an
ER Director (a hospitalist was detailed to cover this position March 18, 2013). The
Chief of Mental Health position remains vacant and VANIHCS has expanded
recruitment to include use of relocation, recruitment, and permanent change in station
incentives, and authorized the pay-table exception to offer higher salary. Six applicants
have been considered in the third quarter of 2013 with no appropriate candidates at this
point. An Assistant Chief, Mental Health position has been added to the leadership
team. Five candidates were considered for this position and a strong candidate has
been identified with a tentative start date of August 11, 2013. The Chief of Geriatrics
and Extended Care (GEC) position remains vacant yet moving forward. Recruitment
incentives shall be increased to maximize efforts. Four candidates have been
considered in the third quarter of 2013 with no appropriate candidates at this point.
Recruitment expansion has included utilization of VA and VHA resources, utilization of
national trade journals and publications, utilization of commercial recruitment web sites,
and direct contact with eleven medical schools to search for potential candidates.

VANIHCS is at the interview stage for an Associate Chief Nurse (ACNS) for Operations
(interviews conducted June 28, 2013) and an ACNS, Primary Care (interviews
conducted July 1, 2013). The previous ACNS for Mental Health and Ambulatory Care
has been divided into two separate positions (ACNS, Mental Health and ACNS, Primary
Care) to allow increased nursing leadership in each area.

VANIHCS has been actively recruiting a GS-15 Associate Director since January 2013
through Workforce Management and Recruiting Office, VA Central Office and has a
current recruitment closing July 10, 2013.




VA Office of Inspector General                                                                   21
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix C
Recommendation 5. We recommended that the VANIHCS Director ensure that nurse
competencies are consistently completed and validated annually.

Concur

Target date for completion: September 13, 2013

Facility response:

VANIHCS Nursing Department Policy ND-2, Competency Evaluation-Nursing is in the
review process. The policy has three major changes: annual nurse executive review of
competencies; change in competency approval process and change in competency
completion timeline.
The policy requires the Nurse Executive to perform a 100 percent review of all nursing
staff competency folders prior to the end of the fiscal year for certification and approval
of the Director. The policy requires all competency forms be routed and approved
through the Nurse Executive Advisory Board for consistency in formatting and
appropriate validation methods. Completion of competency review is being changed for
all nursing staff from the annual proficiency date to the fiscal year. This will assist in the
timely completion of the annual competency review by having all nursing staff on the
same review cycle. Each unit will recommend their competencies to the Nursing
Executive Advisory Board for review and approval. Education will assist with the
training verification and validation of competencies.
Recommendation 6. We recommended that the VANIHCS Director ensure that the
facility fully implements the nurse staffing methodology and complete all required steps.

Concur

Target date for completion: August 30, 2013

Facility response:

VANIHCS will ensure the facility implements all requirements of the nurse staffing
methodology and ensure the numbers, types, and assignments of nursing personnel are
consistent with VHA directive and facility strategic plans.




VA Office of Inspector General                                                                   22
     Review of Circumstances Leading to a Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix D



                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Dorothy Duncan, RN, MHA, Team Leader
                         Marnette Dhooghe, MS
                         Thomas Jamieson, MD
                         Cindy Niemack-Brown, CMSW, LMHP
                         James Seitz, RN, MBA
                         Jennifer Whitehead, Program Support Assistant




VA Office of Inspector General                                                                   23
               Review of Inpatient Care Pause, VA Northern Indiana Healthcare System, Fort Wayne, IN
                                                                                        Appendix E



                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
Office Medical Inspector
General Counsel
Director, VISN 11, Veterans in Partnership (10N11)
Director, VANIHCS (610A4/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Daniel Coats, Joe Donnelly
U.S. House of Representatives: Susan W. Brooks, Luke Messer, Todd Rokita,
Marlin Stutzman, Pete Visclosky, Jackie Walorski



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                   24
